WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-242

Juanita Nichols

V.

Reliance Standard Life Ins. Co.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
0 I am not pre i l a member of the Bar of this Court. Should a response be requested, the response
will be filed y a
Signature

Ru..60,s± Lc, 2 01g

Date.
(Type or print) Name

Joshua Bachrach
Mr.

Firm

0 Ms.

0 Mrs.

0 Miss

Wilson Elser Moskowitz Edelman & Dicker

Address

2001 Market Street, Suite 3100

City & State
Phone

Philadelphia, PA

215 606-3906

Zip
Email

19103

joshua.bachrach@wilsonelser.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Daniel L. Geyser

